              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Cold Standby Program at the
Portsmouth Gaseous Diffusion Plant




DOE/IG-0634                                 December 2003
COLD STANDBY PROGRAM AT THE PORTSMOUTH GASEOUS
DIFFUSION PLANT

TABLE OF
CONTENTS



              Program Results and Cost


              Details of Finding ...................................................................... 1

              Recommendations and Comments ........................................... 5


              Appendices

              Prior Reports .............................................................................. 7

              Objective, Scope, and Methodology .......................................... 8

              Management Comments .......................................................... 10
PROGRAM RESULTS AND COST

Program Plans   The Department has not clearly defined the termination point of the
                Cold Standby Program. Initially, the Department's Office of Nuclear
                Energy, Science and Technology (Nuclear Energy) coordinated the end
                of Cold Standby with the deployment of a government-funded gas
                centrifuge facility. The plans called for the Cold Standby mission to
                end in September 2005 with centrifuge production reaching adequate
                levels by September 2008. Under those assumptions, there would be a
                minimum one-year gap in backup domestic enrichment capability,
                representing the time between the latest possible resumption of gaseous
                diffusion operations and the planned full operation of the government-
                funded gas centrifuge facility. However, the government-funded
                centrifuge program was never implemented, and in 2002, the
                Department negotiated with the United States Enrichment Corporation
                (USEC) to deploy a commercial gas centrifuge facility. Under USEC's
                plan, comparable enrichment production will begin in September 2011,
                increasing the amount of time between the possibility of restarting the
                Portsmouth facility and the deployment of a new commercial centrifuge
                to a minimum of three years.

                According to Nuclear Energy management, the current estimated three-
                year gap between the end of the Cold Standby mission and the gas
                centrifuge deployment may not adversely impact the nation's nuclear
                fuel supply. Management specifically noted that the decision to place
                the plant in cold standby was based on several dynamic, complex, and
                interconnected factors, and Cold Standby was only one element in an
                overall approach aimed at addressing nuclear fuel supply security.
                Based on recent reviews, management stated that the domestic supply
                security conditions have changed significantly, and key issues
                associated with the long-term viability of domestic enrichment have
                improved. The Office of Inspector General was informed, however,
                that these reviews were informal and undocumented. Thus, we could
                not assess their impacts on the current Cold Standby Program nor could
                we see where management used the reviews to justify either the
                cessation or continued need of Cold Standby. Given the significant
                changes in the nuclear fuel supply described by management and the
                cost of Cold Standby, it is important for the Department to formally
                evaluate its resources and requirements to determine whether the
                current gap between the end of Cold Standby and the full scale
                deployment of commercial gas centrifuge presents a vulnerability to the
                security of the domestic nuclear fuel supply.

Program Costs   In December 2000, Nuclear Energy initially estimated that Cold
                Standby would last four years and cost $210 million. However, the
                Department now projects that the program will last five years at an

Page 1                                                              Details of Finding
         estimated cost of $399 million. Increases in indirect costs and additional
         work scope contributed to the increase in total project cost.

         USEC's indirect costs for Cold Standby have increased by an estimated
         $90 million through 2006. This occurred despite contract requirements
         for USEC to identify a continuous improvement program to effectively
         and efficiently reduce overhead and indirect costs to the Government.
         While some of the increase was attributable to a change in the cost of
         worker benefits, the initial rate proposed by USEC was underestimated.
         USEC erroneously assumed that more non-Department activities would
         share the indirect costs.

         The cost of executing Cold Standby also grew because the Department
         increased the amount of work to be performed.1 For example:

             •   The Department has projected that the Cold Standby mission will
                 increase by one year, causing the total project costs to grow by
                 about $71 million, the budgeted amount for operations and
                 overhead for FY 2006.

             •   Nuclear Energy’s initial estimate included deposit removal2 only
                 at a level necessary to enable the restart of the enrichment
                 process. However, when the contract was issued, the
                 Department’s Office of Environmental Management
                 (Environmental Management) provided up to $61 million for
                 USEC to perform deposit removal activities. We were unable to
                 compare the two deposit removal programs because the cost and
                 technical requirements for Nuclear Energy's deposit removal
                 activities were not defined.

             • Environmental Management also provided $10 million in
               additional funds to another contractor for technical oversight of
               the program. According to the contractor's task description,
               technical oversight activities included monitoring and providing
               daily reports on USEC field activities, as well as reviewing and



         1
           The costs associated with the scope growth include allocations of the $90 million
         indirect cost increase.
         2
           Deposit removal refers to a variety of techniques designed to remove deposits of
         uranium from the diffusion equipment. Deposit removal is expected to improve
         operational performance after restart and decrease decommissioning, dismantlement,
         and disposal costs of the process equipment.

Page 2                                                                  Details of Finding
                              issuing recommendations to the Department on routine monthly
                              deliverables under the USEC contract. This effort was not noted
                              in the Nuclear Energy estimate as it was expected that the
                              Department would take responsibility for these activities.

Structure, Strategy,   The effectiveness of the Cold Standby Program has been limited
and Management         because the Department did not formally update mission requirements;
                       assign responsibility of the program to a single organization; execute
                       the most cost-effective procurement strategy; or, develop a
                       programmatic baseline.

                       During our review, we identified and discussed with Department
                       officials several possible sources of enriched uranium that may also
                       address domestic enrichment security. While these potential sources
                       alone may not ensure against supply disruptions, we concluded that
                       they could become part of a comprehensive strategy to ensure the
                       availability of enriched uranium for commercial fuel. In response to
                       our draft report, management stated that the Department had fully
                       examined the ability to use the sources we identified as a part of its
                       annual Cold Standby mission analysis and concluded that none were
                       cost-effective or viable. Further, management stated that the supply of
                       enriched uranium was more secure than when the Cold Standby
                       Program was initiated and that delays in the deployment of gas
                       centrifuge would not necessarily equate to a need for extension of the
                       Cold Standby Program. However, available documentation indicates
                       there is such a link. In fact, according to the Department's FY 2004
                       Congressional Budget request, Cold Standby is tied to the successful
                       deployment of the gas centrifuge technology.

                       In addition, the Department did not have an organizational structure in
                       place that was conducive to effective program execution. Since
                       inception, policy development and operational management have been
                       split between Nuclear Energy and Environmental Management.
                       Nuclear Energy developed the initial Cold Standby plan and is
                       responsible for developing Department policy for nuclear energy
                       supplies. Environmental Management, whose primary mission is to
                       clean up sites such as Portsmouth, was assigned the task of managing
                       and funding the Cold Standby Program. The organizational conflict is
                       evidenced by Nuclear Energy's lead policy role in developing the
                       Memorandum of Agreement for the deployment of the advanced
                       enrichment technology with USEC. Based on the agreement, the
                       Department agreed to clean up buildings that will be occupied by USEC
                       for the gas centrifuge project. In turn, USEC planned to take over those
                       buildings by April 30, 2004. However, Environmental Management,

Page 3                                                                      Details of Finding
         which is responsible for cleaning up the facilities, had not finalized
         its plans and may not finish by the expected date. Additionally, the
         agreement did not require an enrichment replacement capability until
         2011, even though Environmental Management planned to cease
         Cold Standby operations in 2006.

         Furthermore, the Department's lack of a cost-effective contracting
         strategy has contributed to the growth of the Cold Standby Program.
         For example, the Defense Contract Audit Agency advised the
         Department that cost ceilings should be negotiated to prevent
         unreasonable indirect cost rates during contract performance. While
         the Department attempted, but was unable to reach agreement with
         USEC on lower indirect rates, we noted that, based on current rates,
         the Department would pay significantly more than anticipated for
         indirect costs under the contract that ended September 2003. Also,
         the Department did not take advantage of existing agreements with
         USEC to minimize fee payments. For example, in 1993 the
         Department agreed to reimburse USEC on a cost-only basis for
         utilities it used in carrying out environmental cleanup work at
         Portsmouth. However, under the current Cold Standby contract, the
         Department could pay additional fees of $1.3 million for these same
         utilities.

         Moreover, the Department has not effectively negotiated the Cold
         Standby contract with USEC, since the temporary contract had not
         been finalized two years after issuance. One of the primary reasons
         for the Department's inability to complete the negotiations is USEC's
         exclusive authority to operate the Portsmouth Gaseous Diffusion
         Plant. In addition, the restart process would require the safe and
         economic restart of thousands of specialized pieces of equipment,
         which would require process knowledge that is currently available
         only to USEC. As a result, USEC and the Department have not been
         able to negotiate a final agreement on contract fees and employee
         benefits. Since the Department did not negotiate the contract on
         time, the Department could pay USEC an additional $1.6 million in
         profits associated with increased indirect costs through FY 2003.

         To its credit, in January 2002, the Oak Ridge Operations Office
         implemented a comprehensive review system for monitoring Cold
         Standby invoices. The Department also withheld 15 percent of the
         invoiced costs, and no fee was paid until the contract was finalized.
         Management stated that these measures have reduced the number of
         hours billed and the total costs incurred under the USEC contract.


Page 4                                                     Details of Finding
                       For example, in September 2003, the contracting officer took
                       exception to 2,518 training hours and disallowed $251,800 in related
                       contract costs.

                       Finally, Environmental Management did not follow the Department's
                       project management principles in executing the Cold Standby
                       Program. The Department has promulgated guidance for the
                       acquisition and remediation of capital assets, and Environmental
                       Management has stated its intent to use those principles to manage
                       all major projects, not just those required by the Department order.
                       However, these principles were not followed for the Cold Standby
                       Program. For example, a baseline representing Nuclear Energy's
                       initial $210 million estimate was not developed, and almost three
                       years into the program, a comprehensive programmatic baseline still
                       does not exist. In addition, the contractor's baseline and project
                       execution plan have yet to be approved by the Department, and the
                       Department did not approve a restart plan until 20 months into the
                       program. The lack of a comprehensive baseline for the program may
                       have contributed to the program's cost growth, since a baseline is the
                       primary instrument for controlling changes to the technical scope,
                       cost, and schedule.

Cost and Performance   In the absence of a well-defined endpoint and a formalized process
Impacts                for assessing the continuing need of the Cold Standby Program, the
                       Department risks possible unnecessary extensions of the program or
                       potential disruptions in the supply of enriched uranium. Further,
                       because the Department may be vulnerable to schedule increases
                       related to USEC's deployment of gas centrifuge technology, the
                       Department could incur additional costs related to maintaining
                       Portsmouth in cold standby. In determining a reasonable period for
                       Cold Standby, the Department noted that the longer the duration of
                       the program, the more difficult and costly restart would become. If
                       Cold Standby is extended three years to coincide with the
                       deployment of gas centrifuge in 2011, it is projected to cost the
                       Department $220 million over and above the current $399 million
                       estimate, an increase of $409 million over the original estimate.

RECOMMENDATIONS        We recommend that the Under Secretary for Energy, Science and the
                       Environment:

                          1. Reevaluate the Cold Standby Program mission need through
                             a documented process, factoring in restart costs,
                             programmatic risks, impact on site closure, and alternative
                             supply sources;

Page 5                                                                  Recommendations
                      2. Eliminate organizational conflict at Portsmouth by
                         consolidating program activities under a single Department
                         entity;

                      3. Conduct an evaluation of services already provided under
                         existing USEC agreements, and not purchase the same items
                         under the Cold Standby Program contract;

                      4. Negotiate a performance-based contract with cost ceilings;
                         and,

                      5. Establish a programmatic baseline for the Cold Standby
                         Program.

MANAGEMENT AND     Management concurred with the report's recommendations. During
AUDITOR COMMENTS   our audit, management initiated its own review and reached similar
                   conclusions that are consistent with our recommendations.
                   Corrective action plans have been identified and initiated. We have
                   incorporated management's comments, where applicable, throughout
                   the report and included management's verbatim response as
                   Appendix 3.




Page 6                                           Recommendations and Comments
Appendix 1

                                           PRIOR REPORTS


     •   Nuclear Nonproliferation, Implications of the U.S. Purchase of Russian Highly Enriched
         Uranium (GAO-01-148, December 2000). The review found that the Highly Enriched
         Uranium (HEU) agreement has had a beneficial impact on the national security of the
         United States, but not without cost. Not only has the U.S. government spent $325 million
         in purchasing natural uranium from Russia, but the United States also faces a growing
         dependence on Russian-origin material for nuclear fuel. The Congress intended that the
         federal government ensure that neither the privatization of USEC nor the implementation
         of the HEU agreement would be harmful to the domestic uranium industry. However,
         developments since USEC's privatization, combined with USEC's reliance on Russian low
         enriched uranium for nearly half of its annual sales, have created concerns about the United
         State's ability to domestically produce fuel for commercial power plants. The review
         recommended that a study be conducted to determine the impact on the domestic nuclear
         fuel industry of importing newly produced low enriched uranium and to prepare a
         contingency plan in the event that USEC withdraws or is replaced as executive agent for
         the HEU agreement.

     •   USEC Portsmouth Gaseous Diffusion Plant "Cold Standby" Plan (GAO-B-286661,
         January 2001). The report concluded that the costs of the Department's Cold Standby plan
         do not constitute "expenses of privatization" within the meaning of the Privatization Act,
         and therefore are not payable from the USEC Fund. Unless the Department can identify
         further "expenses of privatization" payable from the USEC Fund consistent with the
         opinion in the report, Congress may wish to consider a rescission or transfer of the balance
         of the USEC Fund not reserved under the McConnel Act.




Page 7                                                                                      Prior Reports
Appendix 2

OBJECTIVE     The objective of this audit was to determine whether the Department
              has effectively managed the Portsmouth Cold Standby Program.

              The audit was performed from January 9 to August 1, 2003, at the Oak
SCOPE
              Ridge Operations Office in Oak Ridge, Tennessee; Portsmouth Gaseous
              Diffusion Plant near Piketon, Ohio; and Office of Nuclear Energy,
              Science and Technology, and Environmental Management
              Headquarters in Washington, D.C. The scope of the audit included the
              Department's actual and planned Portsmouth Cold Standby Program
              activities from 2000 through 2011.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed Congressional requirements and intended goals of the
                     Cold Standby Program;

                 •   Compared the initial and current Cold Standby plans, including
                     the projected cost, scope, and schedule;

                 •   Calculated program costs from June 2001 through September
                     2009;

                 •   Determined and quantified the reasons for increased program
                     costs;

                 •   Identified possible alternative sources of enriched uranium;

                 •   Evaluated the Department's procurement strategy for
                     accomplishing the Cold Standby Program and reviewed
                     alternative contracting options;

                 •   Reviewed Departmental regulations and guidance governing
                     project management; and,

                 •   Discussed Cold Standby Program activities with Department
                     and contractor personnel.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control



Page 8                                         Objective, Scope, and Methodology
Appendix 2 (continued)

                     deficiencies that may have existed at the time of our audit. Because
                     only a limited amount of computer-processed data was used during the
                     audit, we did not conduct a reliability assessment of computer-
                     processed data.

                     Finally, we assessed the Department's compliance with the Government
                     Performance and Results Act of 1993. Although the Department has
                     set up the goal of managing the Department's vital nuclear resources
                     and capabilities efficiently and effectively, our review of the
                     Department's Annual Performance Plans for FYs 2001 through 2003
                     did not identify any performance measures directly relating to the Cold
                     Standby Program.

                     We held an exit conference with Nuclear Energy's Deputy Director for
                     Operations and Management and the Manager of the Portsmouth/
                     Paducah Project Office on November 25, 2003.




Page 9                                               Objective, Scope, and Methodology
Appendix 3




Page 10      Management Comments
                                                                              IG Report No.: DOE/IG-0634

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
